Survey of Principal Processes Used to Manage
Funds Provided Under the P.L. 480, Title II
Program
Audit Report Number 9-000-03-001-S

May 23, 2003
             May 23, 2003

             MEMORANDUM

             FOR:           DCHA/FFP, Lauren Landis

             FROM:          IG/A/PA, Dianne L. Rawl

             SUBJECT:       Survey of Principal Processes Used to Manage Funds Provided
                            Under the P.L. 480, Title II Program (Report No. 9-000-03-001-S)

             This memorandum is our final report on the subject survey. In finalizing this
             report, we reviewed your comments on our draft report and have included them in
             their entirety in Appendix IV.

             This is not an audit report and is being issued for informational purposes only,
             with no findings or recommendations.

             I want to express my sincere appreciation for the cooperation and courtesies
             extended to my staff during this survey.



Background   The Agricultural Trade Development and Assistance Act of 1954, also known as
             P.L. 480, is the principal mechanism through which the U.S. Government
             implements its international food assistance initiatives. The intent of this
             legislation, which has been modified many times, is to promote food security in
             the developing world through humanitarian and developmental uses of food aid.

             Food assistance provided under P.L. 480 is delivered to foreign countries under
             three separate programsTitles I, II and IIIwith the bulk of this food aid
             furnished under Title II, administered by USAID, to support targeted emergency
             relief operations and development projects. Title II projects are implemented
             through a variety of cooperating sponsors that include private voluntary
             organizations (PVOs), non-governmental organizations (NGOs), and international
             organizations, such as the United Nations World Food Program (WFP).

             The objective of the Title II program is two-fold: to provide food aid to vulnerable
             groups in emergency situations and to promote development programs critical to
                    long-term food security. As a result, the Title II budget supports both emergency
                    and non-emergency activities. In addition to funding the procurement of
                    agricultural commodities, Title II funds are used to cover ocean freight, inland
                    freight and internal transport, storage and handling (ITSH) costs. Other resources
                    administered under Title II include “Section 202(e)” cash grants awarded to
                    cooperating sponsors (CS) primarily to support their in-country administrative
                    capacity to manage food aid programs. Institutional Strengthening Assistance
                    grants, funded with development assistance funds, are also administered under
                    Title II and provided to the CS to strengthen the capacity of its headquarters staff.
                                                        CHART: Bar Chart displaying the increasing level of funding appropriated under the P.L. 480, Title II Program between FYs 1998 through 2003. During
                                                        this period, the Title II appropriation (including emergency supplemental funding) was $837 million in FY 1998; $986 million in FY 1999; $800 million in
                                                        FY 2000; $837 million in FY 2001; $945 million in FY 2002 and $1.185 billion for FY 2003


                    USAID’s Bureau of Democracy,             P.L. 480 Title II Appropriation Levels
                    Conflict and Humanitarian                      FYs 1998 - 2003 (unaudited)
                                                                                                     $1,185
                    Assistance/Office of Food for          $1,200
                    Peace has primary responsibility




                                                                        Appropriation $ (in millions)
                    for administering the Title II         $1,100

                    program. This Office receives,                          $986
                                                           $1,000
                    reviews, and approves proposals                                             $945
                    from cooperating sponsors,
                                                             $900
                    issues the grants discussed                     $837                  $837
                                                                                   $800
                    above, and manages funds for             $800
                    non-commodity program costs,
                    such as ocean freight. However,          $700
                    because the funds for Title II                   1998 1999 2000 2001 2002 2003
                    activities are appropriated to the                            Fiscal Years
                    U.S. Department of Agriculture
                    (USDA), USAID must work with that Department and the Office of Management
                    and Budget (OMB) to acquire both the spending authority and the funds it needs
                    to carry out its responsibilities.



Survey Objective This survey was designed to answer the following question:
                    What are the principal processes that USAID uses to manage Title II funds?

                    The Office of Inspector General (OIG) undertook this survey because of the steady
                    increase in Title II funding and increased interest of both the Executive and
                    Legislative branches in improving the efficiency of U.S. international food
                    assistance programs. The information compiled during the survey will help both the
                    OIG and food program managers to identify areas of potential vulnerability or risk
                    and areas that can be streamlined during future systems reviews or program audits.



Discussion          The processes used to transfer spending authority and funds to USAID and the
                    principal financial management processes used to administer these funds as of the
                    time of our survey are described below and illustrated more fully in Appendix III.


                                                                                                                                                                                                           2
          FLOW OF P.L. 480, TITLE II FUNDS TO USAID
A brief outline of the process by which funds are made available to USAID is shown
below. A detailed description of the process is presented in Appendix III, page 16.
                                               Chart illustrating the flow of Title II funding to USAID, commencing with the Authorization phase, followed by
                                               appropriation, apportionment of funds to USDA and finally the transfer of obligational authority to USAID.




Authorization: Congress renews USDA’s
and USAID’s authority to undertake food
assistance programs roughly every five years
                                                                     Authorization
through the Farm Bill which updates the
program’s expiration dates (currently FY
2007) and other program provisions.

Appropriation: The annual Agriculture,
Rural Development, Food and Drug
Administration, and Related Agencies                                Appropriation
Appropriations Act appropriates funds to
USDA for Title II and other food aid
programs. Once appropriated, these funds
remain available until spent.

Apportionment: OMB apportions the
appropriated funds to USDA. USDA then                            Apportionment
notifies USAID which sets its Operating
Year Budget levels accordingly. (See
Appendix III, p. 17.)

Transfer of Obligational Authority:
USAID requests USDA to transfer
obligational authority for funds needed for
non-commodity costs. Upon this transfer,
                                                                                         USDA
USAID posts the amount transferred into
its accounting system, called Phoenix.                                             USAID requests
USDA retains authority over the balance of                                            Transfer of
funds that remain available for the purchase                                     Obligational Authority
                                                                                   and Transfer of
of commodities. (See Appendix III, p. 18.)                                               Funds


Transfer of Funds: USAID also requests
USDA to transfer funds needed to pay for
non-commodity costs. These monies are
disbursed from USDA’s Commodity Credit                   USAID
Corporation (CCC) fund, at USAID’s
request, and transferred into USAID’s
Commodity Credit (CCX) fund several times per year, often in large tranches.
Upon each transfer, the CCC fund, from which all program monies are disbursed,
is simultaneously replenished with apportioned Title II funds credited earlier to
USDA’s P.L. 480 Grants fund. (See chart on page 4 and Appendix III, p. 19.)


                                                                                                                                                         3
                                Flow of Title II Monies to USAID

      U S A ID                                     USDA                                        USDA
     CCX Fund                                    CCC Fund                                 P .L . 4 8 0 F u n d
    (7 2 1 2 X 4 3 3 6 )                          (1 2 X 4 3 3 6 )                             (1 2 X 2 2 7 8 )




                                                                                           T itle I I F u n d s
 N o n - c o m m o d it y                       C o m m o d it y                          A p p o r t io n e d t o
         C o s ts                                   C o s ts                                    USDA
      ( U S A ID )                                (U S D A )


Chart showing the flow of appropriated Title II monies to USAID via USDA’s “disbursing” fund (12X4336) as described
in further detail in the preceding paragraph (see “Transfer of Funds”).
                                      USAID PROCESSES
As stated earlier, Congress appropriates funds to USDA to cover the costs of Title II
and other U.S. food assistance programs. Using these funds, USDA purchases
commodities based on the needs of programs approved by USAID. USDA also
transfers a portion of these funds to USAID, upon request, to cover non-commodity
program costs. In addition to reviewing and approving program proposals received
from cooperating sponsors (CS), USAID obligates and disburses the funds received
from USDA to pay for ocean freight, inland transport costs, and cash grants to
support the administrative capacity of the CS; monitors its own funding balance as
well as that maintained by USDA; and reviews individual obligations to determine
whether unspent balances are still needed for their original purposes. These and
other processes used by USAID to manage its Title II funds are described briefly
below and illustrated in further detail in Appendix III.

Program Approval

USAID establishes its need for Title II funds based on the funding requirements
of new and on going Title II emergency and development (non-emergency)
activities. These requirements are ascertained through the review and approval of
proposals submitted by partners, such as WFP, private voluntary organizations
(PVOs), and U.S. and local non-governmental organizations. Flowcharts
outlining the procedures for reviewing and approving proposed activities appear
in Appendix III, with separate flowcharts covering the process performed in
approving activities under each of the following areas:

     (1)     Emergency Program (See Appendix III, pp. 21-22.)

     (2)     Development Program (See Appendix III, pp. 23-26.)

     (3)     WFP Contributions:
             ■ Annual Pledge (See Appendix III, p. 27-28.)
             ■ Emergency Operations Programs (See Appendix III, p. 29.)


                                                                                                                     4
Funds Management

When additional spending authority is needed to meet program expenses, USAID
requests USDA to transfer obligational authority for a portion of the annual food
aid appropriation. USDA grants the request by memo and sends it to USAID.
Upon receipt, USAID’s Bureau for Democracy, Conflict and Humanitarian
Assistance/Office of Program, Policy and Management (DCHA/PPM), Bureau of
Management/Office of Financial Management (M/FM) and Bureau of Policy and
Program Coordination/Budget (PPC/B) act in sequence to post the increase in
obligational authority into USAID’s accounting system—first as an
apportionment, then as an allotment, and finally as an allowance, making the
funds available to DCHA’s Office of Food for Peace (FFP). FFP then requests
the DCHA bureau controller to fund specified functional accounts at the sub-
allowance and distribution levels, based on program approvals, to allow funds to
be obligated under these accounts. (See Appendix III, p. 18.)

Transfer of Funds into USAID’s Commodity Credit Fund

In addition to requesting obligational authority from USDA, USAID periodically
requests USDA to transfer monies that will be disbursed. Transferred funds are
credited to USAID’s Commodity Credit (CCX) Fund account maintained by the
U.S. Treasury. During the course of the fiscal year, USAID monitors the balance
of funds in this account and periodically arranges for additional funds to be
transferred into the account to replenish the fund balance, taking care not to
request funds in excess of the amount of obligational authority transferred for the
fiscal year. In arranging this transfer, USAID’s Office of Financial Management,
Central Accounting and Reporting Division, Funds Control/General Ledger
Section sends a memo requesting the transfer to the budget division of USDA’s
Farm Service Agency (USDA/FSA) which approves the request and notifies both
Treasury and USAID. (See Appendix III, p. 20.)

Commitment and Obligation of Funds

Once available at the distribution levels, Title II funds are committed and
obligated upon the signing of certain documents specific to the transaction. (See
Appendix III, pp. 22, 25 and 30.)

Disbursements

Inland and Ocean Freight (procured by the cooperating sponsor): USAID
disburses funds in payment of freight services upon receipt, and review and
approval, of invoices from cooperating sponsors or their freight forwarding
agents. (See Appendix III, p. 31.)

Ocean Freight (procured by USAID): USAID disburses funds for ocean freight
it procured upon receipt, and review and approval, of the invoice from the carrier.
(See Appendix III, p. 32.)


                                                                                 5
ITSH and 202(e): USAID advances funds for Internal Transport, Storage and
Handling (ITSH) costs and Section 202(e) grants through Letter of Credit (LOC)
arrangements with cooperating sponsors. An LOC is a financing mechanism that
provides advances under assistance awards to qualifying U.S. nonprofit
organizations or commercial organizations and public international organizations
that have U.S. bank accounts. Under this arrangement, a cooperating sponsor
(i.e., grantee) draws funds from its LOC account and reports expenditures against
these advances on a quarterly basis. (See Appendix III, p. 33.)




Photograph of a ship at Port Lake Charles, Louisiana loading 10,000 metric tons of Title II food
assistance bound for Afghanistan (November 2001)


Review and Deobligation of Unliquidated Obligations

Periodically, USAID officials will review the unspent (i.e., unliquidated) balances
of obligations and authorize the deobligation of any unneeded balances. (See
Appendix III, pp. 34-38 for flowcharts outlining the processes followed for
reviewing and deobligating funds from specific types of obligations.)

Reporting of Financial Data to OMB, Treasury and USDA

USAID reports financial data (e.g., obligations) for each of its appropriations and
funds, including its CCX Fund, to OMB on a quarterly basis. In compiling and
reporting this data, USAID initially submits data from its summary trial balance
accounts to Treasury. Treasury processes and edits this data, which USAID later
downloads from Treasury’s server and transmits to OMB. USAID also faxes
summary data to USDA each quarter and prepares a final report for Treasury at
the end of the fiscal year. (See Appendix III, p. 39.)


                                                                                                   6
Photograph of cases of vegetable oil, bound for Afghanistan, being loaded on to a ship at Port
Lake Charles, Louisiana (November 2001)

                 USDA PROCESSES AND REPORTING
Title II funds that are not transferred to USAID are retained by USDA for the
procurement of agricultural commodities requested by USAID. A brief overview
of this procurement process is described below.

Commodity Request Process

The procurement process starts with a request from the PVO. Requests typically
specify the types of commodities needed, quantities and when and where they are
to be shipped. Requests are sent to USAID (FFP) where they are reviewed for
completeness to ensure that the request is in line with the level of Title II
resources authorized for the activity and in compliance with USAID guidelines.
FFP also checks to assure that funds are available for the procurement, verifies
that the overseas mission concurs with the request and resolves any outstanding
issues with the PVO. Upon approval, data on the request is input into the FFP
Information System database for tracking purposes. The approved request
(referred to as the ‘call forward’) is then sent to USDA/FSA to initiate the
contracting process. (See Appendix III, p. 40.)

Contracting Process

USDA is responsible for purchasing all commodities under the Title II Program.
The amount and types of commodities procured are based on the approved
requests submitted, by FFP, to FSA’s Procurement and Donations Division,
Export Operations Branch (PDD/EOB). Upon receipt, PDD/EOB reviews each


                                                                                            7
request checking for accuracy, completeness and any inconsistencies. Requests
are combined to form a scheduled monthly commodity purchasethe larger
quantities garnering better prices, thereby reducing the cost of the commodities as
well as the associated procurement costs. The combined order is then sent to
FSA’s Kansas City Commodity Office (KCCO), which checks the availability
and current market prices for the requested commodities.

If the commodities can be procured, KCCO prepares an invitation for bids and
posts it to FSA’s web page. The invitation specifies the commodities requested,
final destinations, anticipated date of shipment and the date bids are due. Once
the contracting officer has reviewed all of the bids received, awards are made to
the lowest bidders. (See Appendix III, p. 41.)




Photograph of beneficiaries receiving Title II food aid distributed by the World Food Program in
Ganda, Angola (June 2002)



Reporting of Financial Data to USAID

FSA’s Kansas City Finance Office (KCFO) accounts for the financial transactions
associated with the procurement of Title II commodities based on data provided
by KCCO. This data is combined with data relating to funds transferred to
USAID for non-commodity costs to produce a consolidated picture of the Title II
Program. In reporting this data, USDA provides several monthly reports to
USAID for tracking purposes. Two of these reports are described below.




                                                                                                   8
P.L. 480, Title II Tracking Report: This report is prepared by FSA’s
Procurement and Donations Division (PDD/EOB), in Washington, D.C., and is
based on procurement data furnished by KCCO. The report indicates, among
other things, the total amount of Title II funds available for spending during the
fiscal year, the amount of spending authority transferred to USAID, the amount
obligated and the balance of funding still available for programming under the
current year’s appropriation.

Status of Funds Report: Every month, KCFO produces a Status of Funds Report
to show the status of funds appropriated and available under the P.L. 480 Foreign
Assistance Programs (Titles I, II and III). Each report is divided into separate
sections consisting of a summary spreadsheet, combining data relating to the
current and prior fiscal years, followed by additional spreadsheets reporting a
breakout of this data for each individual fiscal year. Within each spreadsheet, the
report tracks cumulative fiscal year balances under the following areas: (1)
Resources (i.e., total resources available for apportionment); (2) Apportioned (i.e.,
total resources that have been apportioned); (3) Available for Obligation (i.e.,
apportioned resources that are still available for commitment and obligation); (4)
Undelivered Orders (i.e., unliquidated obligations); and (5) Expenditures (i.e.,
apportioned resources that have been expended). In reporting on the status of
funds under the program, the report combines data on USDA’s commodity costs
with data on the monies transferred to USAID to cover non-commodity costs,
with the latter recorded by USDA as expenditures upon their transfer to USAID.


USAID Management Comments

USAID’s Office of Food for Peace (FFP) expressed appreciation to the OIG for
producing this report. In commenting on our draft report, FFP noted that the
report effectively documented the complexity of the systems involved in
obtaining and managing Title II funding, which it believes raises questions about
the adequacy of current FFP staffing levels to implement the program.

FFP added that the report will be used in training its new and existing personnel
and that information contained in the report’s flowcharts will enable FFP staff to
more easily identify their roles and responsibilities within the larger process. In
addition, FFP indicated that it intends to use the report to educate partners both
inside and outside of USAID and facilitate FFP’s current effort to streamline its
procedures as mandated by Congress.




                                                                                   9
Photograph of a child carrying a can of vegetable oil received during a distribution to refugees
in Kenema, Sierra Leone. (Courtesy of the World Food Program; February 2002)




                                                                                                   10
                                                                                      Appendix I




Scope and     Scope
Methodology
              The Performance Audit Division of the Office of Inspector General conducted a
              survey of the principal processes used to manage funds provided under the P.L.
              480, Title II Program. The scope of this survey was limited to obtaining an
              understanding of the Title II funding process and documenting the flow of funds
              through this process as well as the procedures in place for managing these funds,
              particularly those implemented within USAID. Areas covered during this survey
              include: the appropriation, apportionment, transfer of obligational authority,
              allowance, commitment, obligation, disbursement and deobligation processes.
              Coverage was also provided over USAID’s procedures for programming funding
              for Title II activities, the commodity procurement process performed by the U.S.
              Department of Agriculture (USDA) and selected financial reporting functions.

              The survey did not attempt to evaluate the effectiveness of these individual
              processes and did not involve substantive testing to verify whether existing
              procedures were, in fact, being implemented and whether they complied with
              applicable agency policies and regulations. In addition, the survey did not include
              coverage over the budgeting process leading to the appropriation of funding. The
              survey also did not cover the procedures for programming Title II funding
              allocated (1) to the Farmer-to-Farmer Program (Title V) since this program is not
              involved in Title II activities and (2) for International Food Relief Partnership
              grants due to the small level of funding authorized for these grants ($3 million).
              Fieldwork was conducted at the offices of USAID’s Office of Food for Peace
              (FFP), Office of Program, Policy and Management (PPM) and Office of Financial
              Management (M/FM) as well as at USDA’s Farm Service Agency, Procurement
              and Donations Division (FSA/PDD) and at its Kansas City Finance Office
              (KCFO) during the period from November 15, 2001 through March 7, 2003.

              Methodology

              To gain an understanding of the processes in place for managing Title II funds,
              discussions were held with USAID officials in the FFP, M/FM and PPM offices
              as well as with officials at the Office of Management and Budget (OMB) and at
              USDA’s Office of Inspector General and FSA/PDD offices in Washington, D.C.
              and at the KCFO facility in Kansas City. Based on these discussions, electronic
              flowcharts were prepared documenting our understanding of selected areas within
              the funding process. These flowcharts were reviewed and cleared by the staff
              whose information was used in preparing the flowcharts to ensure their accuracy.

              In addition, we examined slides from several PowerPoint presentations, prepared by
              FFP, and other reference material covering certain aspects of the funding process for
              general background information on this process. We also reviewed relevant laws,
              regulations and internal policies to gain a better understanding of the financial
              management requirements and procedural policies that applied to USAID.


                                                                                                11
[This page left intentionally blank]




                                       12
                                                                                            Appendix II




List of Acronyms
A&A.........Acquisition and Assistance Module         FY ............Fiscal Year
               (NMS)                                  GC ............Office of the General Counsel
AER..........Annual Estimate of Requirements          GIMS........Grain Inventory Mgmt System
B/L ...........Bill of Lading                         ICRC ........International Committee of the Red
CAR .........Central Accounting and Reporting                         Cross
               Division (USAID/M/FM)                  IEE ...........Initial Environmental Evaluation
CBO .........Country Backstop Officer                 IFRP .........International Food Relief Partnership
CCC..........Commodity Credit Corporation             ITSH.........Internal Storage, Transport and
CMP .........Cash Management and Payment                              Handling
               Division (USAID/M/FM)                  KCCO ......Kansas City Commodity Office
CO ............Contracting Officer                                    (USDA/FSA)
CS.............Cooperating Sponsor                    KCFO.......Kansas          City   Finance     Office
CSR4 ........Cooperating Sponsor Results Report                       (USDA/FSA)
               and Resource Request                   LOA .........Life of Activity
DAP..........Development Assistance Proposal          LOC..........Letter of Credit
DCHA ......Bureau for Democracy, Conflict and         M ..............Bureau for Management (USAID)
               Humanitarian Assistance (USAID)        MT............Metric Tons
DHHS.......U.S. Department of Health and              NGO.........Non-Governmental Organization
               Human Services                         NMS.........New Management System
DP ............Development Programs Division          OBPA.......Office of Budget and Program
               (USAID/DCHA/FFP)                                       Analysis (USDA)
EBES........Electronic Bid Entry System               OIG ..........Office of the Inspector General
EMOPs.....Emergency Operations Programs               OMB ........Office of Management and Budget
EOB..........Export         Operations      Branch    OP ............Office of Procurement (USAID/M)
               (USDA/FSA/PDD)                         OYB .........Operating Year Budget
EOD .........Export         Operations     Division   PA/PR ......Procurement         Authorization      /
               (USDA/FSA/PDD)                                         Procurement Request
EP.............Emergency      Programs     Division   PCIMS......Processed Commodity Inventory
               (USAID/DCHA/FFP)                                       Management System
FACTS .....Federal Agencies Centralized Trial         PDD..........Procurement and Donations Division
               Balance System                                         (USDA/FSA)
FARES .....Food Aid Request Entry System              P.L. 480....U.S. Public Law 480
FCGL .......Funds Control / General Ledger            PMS..........Payment         Management      System
               Section (USAID/M/FM/CAR)                               (DHHS)
FFP...........Office     of    Food    for   Peace    POD..........Program         Operations    Division
               (USAID/DCHA)                                           (USAID/DCHA/FFP)
FFPIS .......Food for Peace Information System        PPC ..........Bureau for Policy and Program
FM............Office of Financial Management                          Coordination
               (USAID/M)                              PPM..........Office of Program, Policy and
FMD.........Financial Management Division                             Management (USAID/DCHA)
               (USDA/FSA/KCFO)                        PRRO .......Protracted Relief and Recovery
FSA ..........Farm Service Agency (USDA)                              Operation (WFP)



                                                                                                       13
                                                           Appendix II



List of Acronyms (continued)
PVO..........Private Voluntary Organization
REDSO ....Regional Economic Development
               Support Office (USAID)
202(e) .......Section 202(e) of P.L. 480: cash
               grants to support Title II activities
SO ............Strategic Objective
TA ............Transfer Authorization
TC ............Transportation and Commodities
               Mgmt Division (USAID/M/OP)
TMCAB ...Traffic Management and Contract
               Administration Branch (USDA)
TRANS ....Transportation                       Section
               (USAID/M/OP/TC)
USAID .....United          States     Agency         for
               International Development
USDA.......United States Department of
               Agriculture
WFP .........United Nations World Food Program




                                                                   14
                                                                                                                        Appendix III

Flowcharts

                                                 List of Flowcharts


         Flow of P.L. 480, Title II Funding......................................................................Page 16

         Apportionment Process.......................................................................................Page 17

         Transfer of Obligational Authority and Allocation Process (USAID) ...............Page 18

         Transfer of P.L. 480, Title II Monies to USAID ................................................Page 19

         Transfer of Funds into USAID’s Commodity Credit Fund (7212X4336)..........Page 20

         Programming of Activities: Emergency Program
            -All Cooperating Sponsors.....................................................................Pages 21-22

         Programming of Activities: Development Program
            -All Cooperating Sponsors (Non-WFP).................................................Pages 23-26

         Programming of Activities: WFP
            -Annual Pledge [Emergency / Development] ......................................... Page 27-28
            -EMOPs [Emergency]...................................................................................Page 29

         Obligation of Funds for Freight-related Costs (ocean, inland and ITSH) ..........Page 30

         Disbursement Process:
            -Inland and Ocean Freight (Procured by Cooperating Sponsor) ..................Page 31
            -Ocean Freight (Procured by USAID) ..........................................................Page 32
            -ITSH & 202(e) – Payments via Letter of Credit .........................................Page 33

         Deobligation Process:
            -ITSH and Inland & Ocean Freight .......................................................Pages 34-35
            -Ocean Freight (Procured by USAID) ..........................................................Page 36
            -Section 202(e) Grants ...........................................................................Pages 37-38

         Reporting of Financial Data to Treasury and USDA..........................................Page 39

         Commodity Procurement:
           -Call Forwarding Process..............................................................................Page 40
           -Contracting Process (USDA).......................................................................Page 41




                                                                                                                                 15
                                                                                            Appendix III


                          Flow of P.L. 480, Title II Funding

                                                                         Congress enacts legislation
                                        Authorization                 reauthorizing the P.L. 480 program
                                                                        approximately every five years.




                                                                       Funding is appropriated annually
                                        Appropriation                 under the Agriculture Appropriation
                                                                          Act enacted by Congress.


                                                                      OMB apportions appropriated funds
                                                                      to USDA (Appendix III, p.17). [Note:

                                      Apportionment                   Additional funds are made available
                                                                         to USDA (and subsequently to
                                                                        USAID) under cargo preference
                                                                           reimbursement legislation.]


                                                                        Funds are credited to the USDA
                    Transfer of
                      Funds                            USDA             Farm Service Agency's (USDA/
                                                                         FSA) P.L. 480 Grant Account
                                                                       (appropriation symbol 12X2278).



                                                       Transfer of     Spending authority for a portion of
  USDA / FSA                                           Obligational   the apportioned funds is transferred
P.L. 480 Grant Account                                                to USAID via transfer of obligational
      (12X2278)                                         Authority      authority to cover non-commodity
                                                                       related costs (Appendix III, p. 18).



                                                                       Funds are disbursed from USDA/
  USDA / FSA                                                            FSA's CCC fund (12X4336) to
Commodity Credit Corp.
    (CCC) Fund
                                                       USAID          cover the purchase of commodities
                                                                       by USDA and also transferred to
     (12X4336)                                                          USAID to cover non-commodity
                                                                      costs. The CCC fund is replenished
                       Monies are transferred to                        on a monthly basis with Title II
                      USAID 2-3 times per year at
                     USAID's request. The amount                        funds drawn from the P.L. 480
                      transferred is limited to the                   Grant Account (Appendix III, p. 19).
                    amount of obligational authority
                     granted (Appendix III, p. 20).


                                                                      Funds made available as a result of
                                                                      deobligations (to be used during the
                                                                       following FY) and claims for ocean
   Purchase of                                   Non-Commodity           freight losses are reapportioned
   Commodities                                       Costs            and reflow thru the above process.


                                                                                                         16
                                                                                                                                Appendix III


                                              Apportionment Process

   Appropriated                                                  Start
 Title II funds are
  apportioned to                                                                                                           USAID
USDA to make the                                                                                                    (DCHA/FFP/POD)
funds available for                                      Appropriation
     obligation
                                                                                                                  computes balance of funds
                                                      Title II funds are appropriated                           previously transferred to USAID
                                                     to USDA under the Agriculture                             (e.g., freight, 202(e)) that remain
                                                             Appropriations Act                                unobligated at the end of the FY


                                                                                           sends data to USDA to be
                                  prepares                                                  added to USDA's balance
          SF 132             "Apportionment and
                              Reapportionment
                                                             USDA                          of unobligated Title II funds
                                                                                           to compute the total carry-
                             Schedule" (SF 132)                 (OBPA)                     over amount to be reported
                                                                                                 on the SF 132

        sends to OMB to
     request apportionment




          OMB                                                USDA
                                                                (OBPA)


       approves request
      thereby authorizing
          funds to be
     apportioned to USDA

                                                  SF 132                  Advice of
                                                  (approved)              Allotment
          SF 132                                                                                Note: Title II funding apportioned to USDA and
         (approved)                                                                             transferred to USAID includes a small amount
                                                                                                   of funds ($10 million/year) allocated to the
                                                                                                  Farmer-to-Farmer Program (Title V) which is
                                                                                                administered by USAID's Bureau of Economic
                                                                                                Growth, Agriculture and Trade (EGAT). These

                                                             USAID                              flowcharts do not cover procedures associated
                                                                                                with the transfer of funds to this program since
                                                         (DCHA/FFP/POD)                         this program does not involve Title II activities.
                                                                                                  The flowcharts also do not provide coverage
                                                                                                over procedures for funding International Food
                                                        develops Operating Year                 Relief Partnership (IFRP) grants, since funding
                                                      Budget (OYB) at office level              authorized for IFRP grants ($3 million) was not
                                                      (requested by FFP Director                   considered to be material in relation to the
                                                         for AA/DCHA approval)                  total Title II appropriation (over $1 billion/year).


                                                  Emergency (SO#1) and Development
                                                  (SO#2) divisions generate emergency
                                                   and development OYB memos that
                                                   delegate country dollar levels within                       End
                                                    each division. These memos are
                                                   cleared by the division director and
                                                   then approved by the FFP director.


                                                                                                                                                 17
                                                                                                                                 Appendix III


                   Transfer of Obligational Authority and Allocation Process (USAID)

Apportioned Title II                        Start
                                                                Memo prepared by
                                                               FFP/POD and signed
funds to cover non-                                           by M/FM/CAR-Director
  commodity costs
 are transferred to                                                                     Memo requesting
 USAID via transfer
   of obligational
                                        USAID                  requests transfer of
                                                               obligational authority
                                                                                          transfer of
                                                                                          obligational                       USDA
                                     (DCHA/FFP/POD)                                        authority                   (FSA/Budget Division)
      authority
                                                                                                                                prepares

                                                                                                                             Memo granting

                                                                  USAID                              sent via fax
                                                                                                                              transfer of
                                                                                                                              obligational
                                                              (DCHA/FFP/POD)                                                   authority



                                                                 distributes copies
                                                                 to M/FM, PPC/B               Note: Once obligational authority has been
                                                                 and DCHA/PPM.                  transferred, USAID may request the U.S.
                                                                                                 Treasury to transfer funds into USAID's
                                                                                                Commodity Credit account (7212X2278),
                                                                  Memo granting                 from USDA's CCC fund (12X4336), up to
                                                                   transfer of
        Allocation Process (USAID)                                 obligational
                                                                                              the cumulative level of obligational authority
                                                                                                  authorized. (See Appendix III, p. 20.)
                                                                    authority




          M/FM                                                          PPC                                                      DCHA
  (M/FM/CAR/FCGL)                                                 (PPC/B/RA)                                                  (DCHA/PPM)
      Accounting                                                    Budget                                                      Program
                                     advises via e-mail
                                   that funds have been
                                  posted (cc: DCHA/PPM
                                   and DCHA/FFP/POD)                                                                           sets up funding
   posts funds to USAID's
accounting system (Phoenix)                                                                                                documents in Phoenix
                                                                  posts allotment
                                                                                          requests DCHA/PPM via            for specified accounts
by creating an 'AT' document                                        into Phoenix
                                                                                           e-mail to establish sub-        at the sub-allowance
 within Phoenix to record the
                                                                                          allowances & distribution        & distribution levels.
appropriation transfer and an
                                                                                           documents for specified
'AO' document to post funds
                                                                                         functional accounts under            advises via e-mail
at the apportionment level.
                                                                                           each strategic objective          that sub-allowances
                                                  advises via e-mail                       (specifying the amount             have been funded
                                                 (cc: FFP/POD) that                          of Title II funds to be
                                                                                              allocated to each)
                        DCHA/PPM               allotment has occurred
                                                 then files e-mails &
                      (Bureau Controller)         approval memo in                                                           DCHA/FFP
                                                    Apportionment                                                               (FFP/POD)
                                                  Schedules Binder


  creates allowance 'AW'              advises FFP/POD
                                                                DCHA/FFP
  document, making funds               that allowance
                                                                   (FFP/POD)
                                                                                                                                    End
 available at the office level.       has been created


                                                                                                                                                   18
                                                                                                                                Appendix III


                                 Transfer of P.L. 480, Title II Monies to USAID


   Overview of Process: Once Title II funds are apportioned to USDA, the funds are initially credited to the USDA
  Farm Service Agency's (USDA/FSA) P.L. 480 Grant Account (12X2278), then gradually transferred from this fund
   to USDA's Commodity Credit Corporation (CCC) Fund (12X4336), a large revolving fund from which monies are
    disbursed to cover all Title II commodity purchases (USDA) and transferred to USAID to cover non-commodity
    (ocean & inland freight, ITSH and 202(e)) costs. With regard to the funds transferred to USAID, USAID initially
   requests a transfer of obligational authority. Once granted, monies are later transferred on an as needed basis,
     at USAID's request, from the CCC fund to USAID's Commodity Credit Corporation (CCX) Fund (7212X4336).
  (see Appendix III, p. 20.) Such transfers are made 2-3 times per year, often in large traunches, advancing funds
     to USAID. The CCC fund is replenished each month for these transfers as well as for the amounts disbursed
        from the fund for the purchase of commodities using Title II monies maintained in the P.L. 480 account.




      Title II
   Apportionment                      CCC fund is replenished
(funds apportioned to USDA)          (reimbursed) with Title II
                                       funds based on actual
                                     payments made from the
                                      fund (by USDA) for the
                                     purchase of commodities
                                     and the amount of funds
                                       transferred to USAID.




   USDA / FSA                                                                                                              USAID
                                                                   USDA / FSA                 transfer of
   P.L. 480 Grant                replenishes fund                    CCC Fund                 funds via                 CCX Fund
      Account                                                                                  SF 1151
                                                                     (12X4336)                                         (7212X4336)
     (12X2278)




 posts accounting entries to
 record the transfer of funds
from the P.L. 480 account to                                       Commodity                                       Non-Commodity
the CCC fund each month to
 replenish the latter fund for                                       Costs                                             Costs
   funds disbursed earlier.



                                                                                             Nonexpenditure
                                                                                                Transfer            Vendor's invoice & SF 1151
                                                                        Invoice               Authorization           are forwarded to USDA's
                                                                                             Form (SF 1151)         Kansas City Finance Office
                                                                                                                   where accounting entries are
                                                                                                                    made each month to record
    USDA/FSA                                                        sent for payment for    issued by USDA to      disbursements from the CCC
 Kansas City Finance                                              commodities purchased      authorize USAID's      fund and replenish the fund
Office, Financial Mgmt                                                                       request to transfer    with additional funds drawn
                                                                                           funds to its CCX fund     from the P.L. 480 account.
Division (KCFO/FMD)


                                                                                                                                                  19
                                                                                                                               Appendix III

Transfer of Obligational Authority                    Transfer of Funds into USAID's Commodity Credit (CCX) Fund


                                                                                                        data downloaded            Treasury
        USDA                                                                 M/FM                     from Treasury server
                                                                                                        on monthly basis           (server)
  (FSA/Budget Division)                                              (M/FM/CAR/FCGL)


                                                                    accountant prepares memo                                   Form 6653
                                                                  requesting transfer of additional
      Memo granting                                             funds into CCX fund (7212X4336)                               (shows balance in
                                                                 to replenish fund (requests made                                 CCX fund)
       transfer of
                                                                based on current balance in fund)
        authority

                                                                             Memo
           via fax                                                         requesting
                                                                         funds transfer


       USAID                                                                signed by
    (DCHA/FFP/POD)                                                       M/FM supervisor



       distributes copies          M/FM/CAR/FCGL
     to M/FM, PPC/B and
          DCHA/PPM
                                accountant periodically                   USDA
                                checks file for approval             (Farm Service Agency -
                               memos granting transfer                  Budget Division)
                               of funds so as to monitor
      Memo granting             the cumulative level of
       transfer of               obligational authority                      prepares
        authority                  granted and avoid
                                 requesting more than
                                    was authorized.
                                                                                         Nonexpenditure
                                                             Approval memo                  Transfer          sent to Treasury
                                                           re: transfer request           Authorization       to effect transfer
                                                                                           (SF 1151)         of funds to USAID
          M/FM
    (M/FM/CAR/FCGL)



                                                                          USAID                                        Treasury
      Memo granting                                                  (M/FM/CAR/FCGL)
       transfer of
        authority


                                                                                         Nonexpenditure                  transfers amount
                                                             Approval memo                  Transfer                   specified per SF 1151
                                                           re: transfer request           Authorization               to USAID's Commodity
            File                                                                           (SF 1151)                     Credit (CCX) Fund
                                                                                                                            (7212X4336)




                                                                                  File
 For more details on the process for
  transferring obligational authority,
  refer to the flowchart on page 18.

                                                                                                                                               20
                                                                                                                                   Appendix III


         Programming of Activities: Emergency Program (All Cooperating Sponsors)


                                                                             Start


                                                                                                   arranges for needs
                                                                                             assessments to be performed             Needs
                        Note: Cooperating Sponsors depicted in
   Needs                                                                                        (internal, external, joint)        Assessment
                           this flowchart include PVOs, WFP          Cooperating                                                   Performed
 Assessment               (emergency operations programs or
  Performed
                           EMOPs only) and the International         Sponsor (CS)
                         Committee for the Red Cross (ICRC).                                         results used in preparing
                                                                                                        the CS's proposal



                                                        CS engages in consultative process
                                                        resulting in development of proposal



 Consultative
  Process                      USAID                                    CS                           CS                           USAID
                                (Mission or                        (field office)             (Headquarters)
                                 REDSO)
                                                                                                                                 (DCHA/FFP/EP)

                                                                   drafts proposal
                              If USAID has a presence in            then sends to
                             country or region, mission or        HQ to be finalized
                              REDSO screens request to
                                 assess its viability while
                             maintaining dialogue with CS.

                                                                    Proposal
                                                                     (draft)




                             Proposal
  Proposal                                                              CS
                            (finalized)
 Finalized &                                                     (Headquarters)          sends for
                                                                                           review
 Reviewed
                            sends to USAID
                               for review
                                                                                                              Mission/REDSO reviews proposal to
                                                                                                              determine whether the proposal :
 21 day review period
                                                                                                               -program & budget are appropriate
 commences after all
documents making up     DCHA/FFP/EP                           provides comments        Mission or
                                                                                                               -adequately addresses known
                                                                                                                food aid needs in the country;
  a complete proposl    Country Backstop
package are received     Officer (CBO)
                                                               and concurrence
                                                                                        REDSO                  -fits into USG's funding priorities;
                                                                                                               -involves activities consistent with
      by FFP/EP.
                                                                                                                those the CS normally carries out.



                           continued on
                             page 22

                                                                                                                                                  21
                                                                                                                                      Appendix III


   Programming of Activities: Emergency Program (All Cooperating Sponsors) [cont.]

                                                                           continued from
                                                                                                                  CBO initially reviews the proposal to
                                                                              page 21                              verify that the package contains all
                                   CBO checks proposal against
                                       OYB level to determine                                                     required documents then performs a
                                    whether any adjustments or                                                        substantive review of logistical,
                                                                                                                     technical, program and financial
                                     reallocations are required.
                                                                             USAID                                 issues. CBO sends issues letter to
                                                                                                                  CS and resolves issues by phone or
  The action memo is drafted by the                                      DCHA/FFP/EP                                   e-mail or by calling a formal
 CBO for signature, by the associate                                      Country Backstop                                 meeting, if necessary.
 director (DCHA/FFP/EP), then sent                                         Officer (CBO)
to the FFP Director for approval. The
 memo specifies the amount of food                                                                                General Counsel's office participates
   requested for programming along                                                 prepares                       if proposal involves program/country
 with the value of these commodities                                                                              FFP has not dealt with in the past or
 (including related freight and ITSH).                                                                               if there are potential legal issues.
     In addition, the memo contains
     background information on the                                                              Transfer            The TA shows the terms of the
   program requesting the food aid,                            Action                                              agreement between CS and FFP,
    program objectives, any relevant                                                          Authorization
 issues, results of Bellmon Analysis,
                                                               Memo                                (TA)
                                                                                                                    approved quantities of food and
                                                                                                                   funding, program description and
  and a recommendation to the FFP                                                                                  defines CS's responsibilities, etc.
  Director on the action to be taken.



Clearance Process (2 stages):                                      TA and Action Memo cleared,                                              TA
  (1) Clearance sheet initially
   prepared & attached to an
                                                   WFP              after which TA is forwarded                  PVO                      (draft)
  empty file and circulated in                                     and Action Memo is retained
 order to designate requester,
    negotiator and CO within                                                                                                           sends to PVO
     Phoenix & NMS; (2) TA                                                                                     Action                    for review
package is then placed in file               TA                                                                Memo
 and recirculated among FFP
                                         (unsigned)
 clearance officials who do a
    substantive review of the                                                                                                            PVO
package; once it receives final
   clearance by the CO (FFP                                                                                     retained            Headquarters
Director or Deputy), funds are
     committed in Phoenix.
                                                                                                                                      sends approval
                                                                       TA &                                                           via fax or e-mail
Note: The process depicted in                                      Action Memo
                                                                                                finalizes
                                                                                                   TA
                                                                                                              USAID
 this flowchart as it applies to                                                                            (DCHA/FFP/EP)
 WFP's emergency operations
programs (EMOPs) is shown in
                                         WFP
   further detail on page 29.                                         sends to FFP
                                                                       director for

                                         signs TA and
                                                                         signing
                                                                                          USAID               signs TA & action
                                                                                                              memo and sends             PVO
                                         sends to FFP
                                                                                          (DCHA/FFP,             TA to PVO          Headquarters
                                                                                            Director)
  After TA is signed, WFP
faxes copy of the (1) cover
page & (2) signature page
                                             TA
                                     [signed] (cover &                 After TA is signed by Director, funds are
 to FFP/EP to expedite the
 process; in addition, WFP           signature pages)                  obligated in Phoenix. CBO sends copy of                        countersigns TA
  sends copy of complete                                                TA to Institutional Contractor who posts                      & returns to FFP
    TA package to FFP.                                                 financial & programmatic data to FFPIS.



   USAID
                                          Action                   sends to FFP           USAID
                                          Memo                      director for
                                                                                          (DCHA/FFP
                                                                                                                  TA filed                 End
(DCHA/FFP/EP)                                                         signing
                                                                                            Director)

                                                                                                                                                      22
                                                                                                                                      Appendix III

               Programming of Activities: Development Program (Non-WFP)
             Review of Development Assistance Proposal (DAP) [Year 1 of DAP]

                   Start


                                                                                           DAP specifies quantity of commodities requested for
                                                                                              up to a 6-year period. DAP includes the following
                   CS                                                                     documents: Annual Estimate of Requirements (AER);
                                                                                                commodity procurement schedule; commodity
            [Cooperating                             CS prepares                           worksheet for life of activity (LOA) [LOA projects Title
              Sponsor]                                  DAP                                 II funding levels on country by country basis; serves
                                                                                               as basis for Congressional Budget Justification];
                                                                                             monetization plan; Bellmon Analysis; logistics and
                                                                                          financial plan; monitoring and evaluation plan, and the
                                                                                                    Initial Environmental Evaluation (IEE).
             Conducts
           Food Security
            Assessment
                                                                                          Note: DAP submitted during the initial year only
                                                          DAP                             with CSR4 submitted annually for the remaining
     Assessment identifies problem                                                        years under the DAP (e.g., years 2 through 6) .
    areas and interventions needed
    to improve food security; results
    used as basis for preparing DAP                   sent to mission
                                                      and DCHA/FFP
                                                      simultaneously                           Upon receipt, from the
                                                     (due by Nov 1st)                         CS, DCHA/FFP has 120
                                                                                              days to accept or reject



                                                                                                          sends DAP to             DCHA/FFP
   USAID                                reviews and sends
                                     comments to DCHA/FFP                      USAID                     contractor for a
                                                                                                          completeness             Institutional
(Overseas Mission)                   within 45 days of receipt                 (DCHA/FFP)                    check                  Contractor

                                                                                                                               verifies DAP contains all
                                                                                                                                required documents &
                                                                                                                                distributes to reviewers
                                                                            Issues Meeting
                                                                           CBO prepares DAP work-
                          issued               Issues
                                                                         sheet; reviews the DAP; and
                                                                                                            provides CBO           Reviewers
                                                                          chairs meeting to determine
    CS                 2 weeks prior
                        to external             Letter                   those issues to be discussed
                                                                             during formal review
                                                                                                            with comments
                                                                                                            on any issues
                                                                                                                                (staff from various
                                                                                                                                  bureaus within
                          review                                                                               identified
                                                                                                                                      USAID)

                                                           DAP
                                                        Acceptable?Yes                                        FFP/DP holds formal DAP review
                                                                                  FFP                          meeting chaired by FFP Dir and
                                                                                                            attended by FFP/DP Deputy Director
                                No              No                               Formal                        CBO, CS HQ & field staff, PPM,
    CS                       Deferral       Rejection      letter sent to        Review                      program officer; based on meeting,
                                                                                                             FFP either accepts or rejects DAP
                                                          CS indicating
                              Letter         Letter       acceptance of
                                                                                 of DAP                     or issues deferral letter citing actions
  addresses                                                  proposal                                       CS needs to implement before DAP
DAP deficiencies                                                                                                 can be accepted / approved.
                            non-approval
                           pending action
                                                                                 CBO checks DAP proposal
    DAP                                              USAID                       against development OYB
                                                                                 country $ levels so division
                                                                                                                 drafts and
                                                                                                                 processes
                                                                                                                                    continued
                                                 (DCHA/FFP/DP)                    director can determine if        the TA          on page 25
                                                                                  adjustments are needed.

                                                                                                                                                       23
                                                                                                                             Appendix III

                Programming of Activities: Development Program (Non-WFP)
              Review of Annual Performance Report (CSR4) [Years 2-5 of DAP]

                                                     Start




                                                     CS
                                                    prepares
                                                                                    The CSR4 document is prepared
 CSR4 package consists of several
                                                                                    & submitted in years subsequent
  documents, including the Annual
                                                                                     to approval of DAP (years 2-5);
  Estimate of Requirements (AER),                   CSR4                            unlike the DAP, CSR4 focuses on
 environmental status report (tracks
                                                                                     results, summarizing prior year
  status of the Initial Environmental
                                                                                    results & supporting the resource
 Evaluation) and the results report.
                                                                                      request for the upcoming FY.
                                                  sent to mission
                                                 and DCHA/FFP
                                                simultaneously for
                                               review (due Nov. 1)




                                            CSR4
   USAID                                  (with mission
                                           comments)
                                                                                USAID                                CSR4
(Overseas Mission)                                                              (DCHA/FFP)




                                              verifies all required documents             DCHA/FFP
                CSR4                         have been submitted with CSR4                Institutional
                                            and distributes CSR4 to reviewers
                                                                                           Contractor


                                                                                                    CBO collects issues that may impact
                                                                                                   funding levels and tries to resolve with
             Reviewers                                               FFP/DP                          CS or mission; also prepares CSR4
                                             provides
                                                                                                     worksheet; reviews CSR4, checking
         (staff from various            comments on any        Country Backstop                     the justification for requested funding
                                         issues identified
       bureaus within USAID)                                    Officer (CBO)                         levels and verifying that requested
                                                                                                   commodities are in line with expected
                                                                                                    activity levels (specified by the LOA).



                         Revisions to any documents
                      included in CSR4 package (e.g.,
                      AER), particularly any impacting
                                                                      CSR4                                  USAID
                       funding levels, may necessitate                                                   (DCHA/FFP/DP)
                           a revision of the CSR4.




                                                                                                              continued
                                                                                                             on page 25

                                                                                                                                              24
                                                                                                                             Appendix III

                       Programming of Activities: Development Program (Non-WFP)
                               Processing of Transfer Authorization (TA)

                       continued from
                                                     DAP/CSR4
                       pages 23 & 24

 Country Backstop Officer (CBO):
  -creates Transfer Authorization (TA)
   package with all documents related to
   CS proposal (TA,DAP,AER,CSR4)
  -reviews DAP & CSR4 documents;
                                                                                           TA
  -sends draft TA to CS for review;
  -makes adjustments, as necessary,                  USAID                               (draft)
                                                                                                          sends for
                                                                                                           review
                                                                                                                                CS
   to CS proposal and/or AER amounts;              (DCHA/FFP/DP)                                                               (PVO)
  -finalizes Review Worksheet &
   recommends resource levels
  -checks proposed funding level against
   current year development OYB


                          Review Worksheet is
     TA                    attached to TA and                                       Operational          Division Chief
                                                           TA
 Clearance &               annotated by FFP                                           Team                   (Associate
                          staff as TA file goes
 Modification              through clearance                                         Leader              Director, FFP/DP)      assigns
                                                                                                                               contracting
   Process                       process.
                                                                                                                                 officer



                                                                   TA                                           assigns     Contracting
                                CBO                                                       Negotiator           negotiator     Officer
     resolves issues
     and revises TA
      as appropriate

                                                                                                                 DAPs: reviewed & signed by
                                                                                                                 DCHA/FFP Deputy Director
                                                                                          DCHA/FFP               and Director;
          TA                                                                             (Deputy Director)       CSR4: TA modification file is
                                                                                                                 passed directly to the DCHA/
                                                                                                                 FFP/DP Associate Director
                                                                                                                 for signing (if $10 million or
                                                                                             reveiws &
                                                                                                                 less) or to the FFP Director
                                             Division Chief                                   signs TA
                                                                                                                 (if TA > $10 million)
                                                (Associate
                                            Director, FFP/DP)
   DCHA/FFP
     (FFP/POD)                                                            sends           DCHA/FFP
                                                                        to Deputy           (Director)
                                            Reviews TA package           Director
checks amounts budgeted                         and signs-off on                                                      Upon the signing of TA,
                             sends to
  under TA against OYB                        Review Worksheet                                                         the funds programmed
                             Division                                                        signs TA
 levels and procurement                     (funds are committed                                                       under TA are obligated
                              Chief
   schedule (OYB level                        in Phoenix & NMS)                                                       in both Phoenix & NMS.
    adjusted quarterly)
                                                                                                  TA
                                                                                            (approved)

          TA                                       TA
                                                                                             continued
                                                                                            on page 26

                                                                                                                                             25
                                                                                                                 Appendix III

Programming of Activities: Development Program (Non-WFP)
   Processing of Transfer Authorization (TA) [continued]
   continued
 from page 25




                                          TA                               Division Chief
DCHA/FFP                               (approved)                             (Associate
  (Director)
                                                                          Director, FFP/DP)                signs AER (1st year
                                                                                                              only) approving
                                                                                                            commodity levels



                                                                 TA                                              AER
                         CBO                                (approved)                  incorporated
                                                                                      into TA package




                   DCHA/FFP                      approved quantity & funding
                                               levels for ocean & inland freight,
                   Institutional                ITSH and 202(e) are input into
                    Contractor                 FFP Information System (FFPIS)                 FFPIS



                                                                                             TA kept on-file in FFP/POD
                          TA                                                                 pending receipt of (1) CS's
                      (approved)
                                                       DCHA/FFP                            commodity call forward request
                                                          (FFP/POD)                        (forwarded by mission) and (2)
                                                                                            mission's concurrence cable.




         TA                              AER
      (3 copies)                       (3 copies)
                                                                                    DCHA/FFP
                                                                                       (FFP/POD)

       sent to be
     counter-signed


                                                                             1 copy                     1 copy


                                                                                                        FFP
                         CS                                                                             Files
                                                                           M/FM


                          TA
                       (2 copies)
                      counter-signed                                                                    End

                                                                                                                                 26
                                                                                                                                           Appendix III


                                    Programming of Activities: WFP - Annual Pledge

Note: WFP represents USAID's largest cooperating sponsor, with                                                       The Pledge TA, signed by the Director
responsibility for moving over 50% of the total Title II commodities                   Start                          of DCHA/FFP & Executive Director of
  shipped. Funds are made available to WFP via: (1) an annual                                                        WFP, is issued on an annual basis and
  pledge (p. 27) and (2) contributions made outside the pledge to                                                    covers a 1-year period (starting Oct. 1).
fund Emergency Operations Plans (EMOPs), Protracted Recovery                                                         TA authorizes transfer of commodities
 Relief Operations (PRROs) and other multilateral support (p. 29).            Pledge Transfer                         and payment of certain related costs,
                                                                                                                      with the $ amount authorized applied
                                                                               Authorization                          towards the total agreed upon earlier.
                              spreadsheet indicates the allocation of
                                                                              (TA) signed by                         The pledge for FY03 was $200 milllion,
    USAID                      most of the pledge resources among
                               activities specified by USAID, listing         USAID & WFP
                                                                                                                       consisting of $150 million in directed
                                                                                                                     contributions,$30 million in multilateral
    (DCHA/FFP)                the activities by country and program.                                                 contributions and $20 million in 202(e)
                              This list includes on-going activities as                                               (see procedures for 202(e) on p. 28).
                               well as new ones approved earlier by
                              the WFP Executive Board (Note: FFP
        compiles                 sits on this board as a member).                                                    performs a detailed review of individual
                                                                                                                       multilateral activities listed in WFP's
                                                                                  USAID                               resource proposal to determine which
                                                                                                                        of these USAID is willing to fund,
                                         Resource                                (DCHA/FFP)                             adjusting MT levels as necessary.
   List of Directed
                                         Proposal
    Contributions                                                                                        provides comments and
                                          (draft)
                                                                                                        adjustments within 30 days


                          submits                                         USAID                                    shows the timing of
                                                                                                                   Shipping Instruction
                                                                          (DCHA/FFP)                              issuance by WFP for
                                                                                                                   the procurement of
                                                                                                                                               WFP
                                                                                                                   each commodity by
       WFP                                                                  approves
                                                                                                                     month over the
                                                                                                                    12-month period.            modifies
                                                                            proposal                  submits                                   proposal
                                                                                                      within 30
                                                                                                        days
                                                                                                                                               Resource
 WFP prepares a proposal (spreadsheet)                                                                              Procurement
 showing how it proposes to spend funds
                                                                                                                                               Proposal
                                                                                        Resource                        Plan
    approved under the pledge for multi-                  Procurement                                                                          (revised)
                                                                                        Proposal
 lateral activities. This proposal, together                  Plan
    with the list of directed contributions                                            (approved)
  received from USAID, make-up WFP's
  preliminary or draft Resource Proposal.




                                                                                    FFP/POD prepares a cost sheet

       WFP                                        USAID                            for each activity summarizing total
                                                                                   anticipated ocean, inland and ITSH
                                                                                                                                           Cost Sheet
                                               (DCHA/FFP/POD)                      costs associated with that activity.

 sends requests to FFP
 throughout the year to                                                                          DCHA/FFP                    data from cost
call forward commodities                                                       data input
per the procurement plan                                                      into FFPIS         Institutional               sheet furnished
                                                     FFPIS                                        Contractor
                                                                                                                              to contractor



    USAID
                                 Procurement Authorizations (PA), authorizing the expenditure of
 (DCHA/FFP/POD)                                                                                                    PAs and
                                  U.S. funds for ocean freight and inland transportation costs, are
                                                                                                                                                continued
                                generated at the start of FY (amended quarterly) and forwarded to                   PA/PR                      on page 30
                                FFP/POD prior to issuance to WFP. When the first project with an
                                 ITSH component is approved during the FY, USAID will issue an
   see call forwarding           annual Purchase Authorization/Procurement Request (PA/PR) to
    process on p. 40              WFP, authorizing the expenditure of U.S. funds for ITSH costs.

                                                                                                                                                            27
                                                                                                                          Appendix III


      Programming of Activities: WFP - Annual Pledge (cont.): Section 202(e) Grants


                                              Start

                                                                                        reviews proposal and          Grant
                                                                      USAID            revises amounts per its
                                                                                        own calculations, then      Document
                                                                    (DCHA/FFP/POD)      drafts grant document
                                            WFP
                                                                                                                       Grant
                                          submits proposal                                           data input
                                           showing areas                                                             Review &
                                                                                                   into Phoenix
Of the $28 million in 202(e) grant       to receive funding                    Phoenix &              & NMS          Clearance
  funding authorized in FY 2002,                                                 NMS                                  Process
$10 mil was allocated to WFP to
support WFP's HQ (Rome) costs
as they related to the operation of        Proposal
 the Title II program; these funds
 are provided to WFP via a grant                                                                              review cover sheet attached
(generally signed in September).                                                                                 to grant document and
                                                                                                               circulate to obtain required
                                                                                                                signatures and document
                                                                                                               review process. (see p. 30
                                                                                                              for example of this process.)



             Grant                                                                     Grant
          (clearance
          page only)
                                         signs                WFP                    Document




                                                           Grant
         USAID                    clearance page
                                 incorporated into       Document
                                                                        sent for
                                                                        signing
                                                                                   DCHA/FFP
         (DCHA/FFP)               grant document                                      (Director)
                                                                                                            signs grant




                                                                                             Grant                          Grant
                                                                                           Document                       Document
                                                                                             (2 copies)




                                                                                                                              Grant
                                                                                                                               File
                                                                                            WFP


                                                                                                                              End


                                                                                                                                         28
                                                                                                                                   Appendix III


 Programming of Activities: WFP - Emergency Operations Programs (EMOPs)

          Start               Note: The procedures outlined below also apply to the programming of funds for Protracted
                                 Recovery Relief Operations (PRROs) that are provided outside the annual pledge.

                                                                                            CBO reviews program,                   Action
                                                                   USAID                      determines USAID's
                                                                                         contribution level, and checks            Memo
        WFP                                                        (DCHA/FFP)              division OYB level, then
                                                                                            prepares Action Memo
                                                                                                                                    (draft)

                                       checks WFP
                                    website for any new
                                     EMOP programs
                                                                    prepares                                    sends for
   compiles list of                                                cost sheet     FFP/POD                       clearance
  approved EMOPs
 programs which are
posted on the Internet                                                          reviews cost amounts
                                                                                  and clears memo


After clearing Action Memo, cost
  sheet prepared showing how
                                                   Cost Sheet
                                                                                     Action
                                                                                                       sends for
                                                                                                                            FFP/EP
  much of the proposed budget                                                        Memo              signature            Associate
 USAID willing to fund based on
current commodity pricing sheet                                                                                              Director
(updated at least semi-annually).
                                                     incorporated
                                                     into Transfer                                                             signs
                                                     Authorization                                                             memo
                                                                                     Action
                                                                                     Memo
                                                     Transfer
                           TA                    Authorization (TA)
                                                 prepared by CBO
    sends for
     review

                                                                                                               After TA signed, CBO

                                           TA               forwards to            USAID                        files documents and
                                                                                                                sends a copy to the
FFP/POD                                                    USAID to be
                                                                                   (DCHA/FFP
                                                                                                              Institutional Contractor.
                                                          counter-signed
                                                                                     Director)
                                                                                                                          TA
                                                                                                                     (signed)

                                                            Action                      TA
      TA                                                    Memo                     (signed)

                      signs TA                                                                                     DCHA/FFP
                                                                                                                   Institutional
    sends for
                              Note: Funds for EMOP activities                                                       Contractor
     signing
                              are provided to WFP under three              EMOP
                                 separate grants covering total             File                                      data input
                               emergency (1) ocean freight, (2)                                                      into FFPIS
                              inland freight and (3) ITSH costs.
                                Separate PA/PRs are prepared
                               for these 3 grants to commit and
                                 obligate the emergency funds
   WFP                        authorized. TAs may also include
                              special 202(e) funding (furnished             End                                      FFPIS
                                 outside of the annual pledge).

                                                                                                                                              29
                                                                                                                                        Appendix III


    Start            Obligation of Funds for Freight-related Costs (ocean & inland freight and
                             ITSH): Processing of the Procurement Authorization (PA)
DCHA/FFP                Procurement                                       DCHA/FFP                        DCHA/FFP/POD: (1) extracts general data on
                                                                                                         the award from the PA and enters the data into
Institutional           Authorization           sends in batches            (FFP/POD)                    NMS, where a request # is assigned, and then
                            (PA)                4-5 times per year
 contractor                                                               Budget Specialist                into Phoenix, referencing the NMS request #;
                                                                            "Requester"                     (2) sets up request for the obligation in NMS
                                                                                                         (A&A module) and in Phoenix, then prepares a
                                                       included
    queries                                                                                                 routing slip, "NMS/Phoenix Action Request -
                                                      with batch
   database                  data used to                                                                New Award", which is attached to the PA, then
                             prepare PA                                                                    routed to FFP staff for further processing ; (3)
                                                                                                         maintains schedule showing amount approved
                                                 FFPIS Summary:                                              under each PA, broken down by functional
                                                 Drawdown Against                                          account # (used in determining amount to be
                        FFPIS Sponsor             Activity Accounts                                      requested under each functional account once
                        Report: "Line 17                                        PA                       the allowance has been created); (4) logs data
                           Report"                                          (routing slip                  on amounts awarded per FFPIS report into a
   FFPIS                                                                     attached)                        spreadsheet tracking the status of funding
                                                                                                         (total PA awards, obligations and expenditures
                                                                                                           to date) by CS and by functional account; (5)
              generates summarized data on PAs                                                             reviews & updates spreadsheet on a monthly
                                                                                                             basis, posting obligations once the PA has
                                                                                                            been processed and posting expenses upon
                  DCHA/FFP                        designates              DCHA/FFP
                                                                                                            arrival of invoices, and checks the validity of
                                                                                                          the data by comparing balances against those
              Contract Officer (CO)            Contract Officer for         (FFP/POD)                    contained in Phoenix; and (6) furnishes copies
                  (FFP/POD Associate           NMS A&A module                                               of spreadsheet to the institutional contractor
                       Director)
                                                                           Team Leader
                                                                                                             and the Country Backstop Officers (CBOs).




                                        designates Negotiator
                                                                          DCHA/FFP                         Verifies that amount requested per Phoenix
                                                                            (FFP/POD)                      and NMS are the same; performs steps to
                                        for NMS A&A Module
                                                                                                             commit funds in Phoenix, then in NMS.
                                                                           Team Leader

                                                                                                           Reviews approval package; then carries out

          obligates funds
                                  DCHA/FFP                                                                the steps within NMS (A&A module) to move

          in Phoenix after        Contract Officer           sends PA     DCHA/FFP                        the request from planning phase through the
                                                                                                           award phase at which time an NMS award
                                                            for signing
           signing the PA        (FFP/POD Associate                          Negotiator                   number is generated and an obligation is set
                                      Director)                                                                    up under the commitment.




DCHA/FFP                                                           DCHA/FFP                                                    PA
                                       PA                          Institutional
                                                                                       prepares & attaches
                                                                                         cover letter, then
  (FFP/POD)                                                                                                             (with cover letter)
                                                                                         distributes to CS
Budget Specialist                                                   Contractor



      PA                                                 CS                               2 copies for
                                                                                                                              1 copy

  (routing slip                                      Cooperating                           signature
   attached)                                          Sponsor
                                                     signs & returns
                                                       both copies                   PA                                  USAID
                                                                                   (signed)              2 copies        (FFP/POD)
      File

                                                                                                                              End
                                                                                                                                                        30
                                                                                                                                 Appendix III


 Disbursement Process: Inland & Ocean Freight (Procured by Cooperating Sponsor)

          Start
                                                                                   FFP/POD (Budget Specialist)
                                                              USAID                 logs voucher into a voucher
                                                                                     spreadsheet (Excel) that is
                                                                                                                              Voucher
                                                           (DCHA/FFP/POD)                                                   Spreadsheet
                                                                                  maintained for tracking purposes
       Freight
       Carrier
                                                                                                       Voucher includes following documents:
                                                                                                        --Invoice (SF 1034 form);
after shipping commodities,                                                                             --Form 1550, Commodity Request for
 sends invoice so voucher
                                                               Voucher                                     Foreign Distribution (providing detailed
can be prepared and sent to                                                                                information on commodity shipment);
USAID for payment (may be                                                                               --Bill of Lading; and
 performed by CS's freight                                                                              --Commodity Availability Form
    forwarding agent on
        CS's behalf).                                              forwards

                                                                                                       Upon receipt, the IC logs the voucher into
                                                                                                        a voucher log; then reviews the voucher
                                                                                                          to determine whether: (1) all required
        Invoice                    Voucher                   DCHA/FFP                                  documents are included and are properly
                                 (includes invoice)                                                      signed, (2) documents indicate correct
                                                             Institutional                              obligational reference # and (3) shipping
                                                            Contractor (IC)                              rates charged are consistent with rates
                                                                                                        specified by the low bidder (carrier) in its
                                     prepares                                                           contract. Once the IC has completed its
                                     voucher                        reviews                            review and cleared the amounts claimed,

          CS                                                        voucher                             an administrative approval sheet (green
                                                                                                          sheet) is attached to the voucher and
  (and/or CS's freight                                                                                    sent to DCHA/FFP/POD to be signed
                                                                                                           (administratively approved). If any
   forwarding agent)                                                                                    amounts are disapproved, IC prepares a
                                            sends for           Voucher                                 memo for FFP/POD's signature to notify
                                          administrative           (cleared)                           the CS and forwards it to FFP/POD along
                                            approval                                                       with the other voucher documents.


  DCHA/FFP
    (FFP/POD)                                                                            updates spreadsheet,
 Associate Director                                           DCHA/FFP               indicating date received from             Voucher
                                                                                       IC, date sent to M/FM and             Spreadsheet
                                                                (FFP/POD)            amount approved for payment
    administratively                                          Budget Specialist
   approves voucher
                                                                                     retains & files
                                                                                     copy of cover
                                                                                         sheet           Admin Approval
                                                                                                                                         File
      Voucher                                         Voucher                                             cover (green)
     (approved)                                       (approved)                                             sheet




                  generally processes                                          Payment                            CS
                  within 3-5 work days                 M/FM                                              (and/or CS's freight
                                                                                                          forwarding agent)



                                                                                                                   End
                                                                                                                                                 31
                                                                                                               Appendix III


                     Disbursement Process: Ocean Freight (Procured by USAID)


                                                Start



                                              Freight
                                              Carrier


    Invoice (i.e., voucher)
       package includes                                              Note: M/OP/TC processes invoices for ocean
    invoice, Bill of Lading,
                                              Invoice               freight contracts where USAID contracts directly
   published tariff schedule                                          with the ocean transport firm because (1) the
     and other documents                                              CS does not have its own freight forwarder or
                                                                      (2) a food emergency makes it necessary to
                                                                      commence delivery prior to the signing of the
                                                                       agreement with the CS. These contracts all
                                              USAID                 have a "TRN" prefix and are the responsibility of
                                                                         the M/OP/TC office while the non-"TRN"
                                              (M/OP/TC)                    contracts are handled by FFP/POD.




                               Invoice                       Invoice
                               (original)                     (copy)                              M/FM

                                                          Administrative
                               USAID                      Approval Form
                                                          "Green Sheet"
                                                                            logs invoice and attaches
                                                                             unsigned approval form
                               (M/OP/TC)                     (unsigned)      to the invoice (voucher)




                                                          Administrative
  M/OP/TC Specialist reviews invoice to                   Approval Form
   verify: (1) rates billed consistent with                 (signed)                        USAID             posts
                                                                                                            payment to
 those specified in contract & published                                                       (M/FM)        Phoenix
   tariff schedule in effect at the time of
loading, (2) rates are correctly applied to
   the tonnage cited in the Bill of Lading                   Invoice                             sends
   and (3) the food arrived at port. Once                                                      payment
                                                            (original)                         to carrier
approved, M/OP sends invoice, approval                                                                           Phoenix
  form and a payment memo (indicating
amount approved for payment & balance
 of funds available to be deobligated) to                 Payment Memo
                                                             (signed by
                                                                                             Freight              see page 36
  M/FM to authorize the payment to the
 carrier. Copies are retained for the file.                M/OP/TC - Dir)                    Carrier            for deobligation
                                                                                                                    process


                                                                                                                               32
                                                                                                                          Appendix III


     Disbursement Process: ITSH & 202(e) - Payments via Letter of Credit (LOC)

                 Grant Officer initially approves grantee's request
                   for funds to be advanced via a Letter of Credit
Authorization    (LOC) arrangement. LOC accounts may only be
                 set up for U.S. grantees with grants > $120,000.              Upon receipt of the signed grant agreement or
  of LOC          In most cases, one LOC account is established                amendment from DCHA/FFP, M/FM/CMP logs
  Amount          for each grantee thru which funds are advanced               amount into the payment management system,
                for all of the grantee's USAID awards. The grant              maintained by the U.S. Department of Health and
                   agreement or amendment is signed by DCHA/                    Human Services (DHHS) so as to establish or
                FFP (which posts the commitment and obligation                  adjust the balance authorized in the grantee's
                 into Phoenix) and then forwarded to M/FM/CMP.                   LOC account for that specific grant award.


                                                                                               sends grant data
                            posts             Grant                                             electronically to
      USAID             commitment
                             and
                                            Agreement                   USAID               authorize adjustments
                                                                                                to LOC account
      (DCHA/FFP)          obligation      or Amendment                  (M/FM/CMP)
                                                                                                                          Payment Mgmt
                                                                                             (setting funding limit          System
                         in Phoenix
                                                                                              under grant award)




                     Grantee draws funds from LOC by logging into
                     system (maintained by DHHS) and specifying
Funds Drawn           the amount to be withdrawn. (Note: system
                      prevents grantee from withdrawing in excess
  on LOC             of the aggregate amount authorized by M/FM
  Account             for all grants under grantee's LOC account.)



                      Grantee                 requests funds
                                                                                      transfers funds to grantee's
                                                                                       bank account (through the
                                                                                                                       Grantee
                       Cooperating             electronically         Payment Mgmt     Federal Reserve Bank) on           U.S. bank
                       Sponsor (CS)                                      System        the following business day          account




 Reporting                                          reports data

 Process              Grantee                       electronically
                                                    via PMS 272
                                                                              PMS 272                                 Payment Mgmt
                                                                                                                         System



                                                                                                                   M/FM downloads data
                      At the end of each quarter, grantees
                                                                                  computes the amount             on reported expenditures
                        are given 45 days to transmit the
                                                                                disbursed (expended) for           which is then input into
                        PMS 272 which is the electronic
                                                                                the quarter by comparing           Phoenix on a bi-weekly
                           version of the Federal Cash
                                                                               the cumulative expenditure        basis via batch processing.
                     Transaction Report (SF 272) to report
                      the cumulative expenditure balance                        balance as of the current
                       under the account and each grant.                       quarter with that shown for
                                                                                  the preceding quarter



                                                                                                                        Phoenix
                                                                                                                         (USAID)



                                                                                                                                          33
                                                                                                                                         Appendix III


                          Deobligation Process: ITSH and Inland & Ocean Freight

                                                                                                                   FFP Budget Specialist queries Phoenix
 Data Query                DCHA/FFP                                                                                to perform a global search for all grant
                                                           performs                                                 accounts funded from the Commodity
Performed to                (FFP/POD)                     data search                                               Credit (i.e., CCX) fund (see page 19)
  Identify                Budget Specialist                                             Phoenix                    with obligation dates occurring within a
                                                                                                                     specified time period. Based on this
Unliquidated                                                                                                         query, Phoenix generates a list of all
 Obligations                                                                                                       "CCX" grants (including amendments)
                          Data generated from the query (obligations,                                                 obligating funds during that period.
                                                                                         downloads                  The period specified during this query
                          expenditures and the unliquidated balances
                                                                                           data                    includes the period under review, plus
                           under each grant) are downloaded into an
                          Excel spreadsheet (base report) where each                                                two or more years beyond the end of
                           grant and amendment is listed separately.                                                  this period to ensure that the query
                                                                                                                     captures all of the amendments and
                                                                                                                     expenditures under each obligation.

Reformatting                                                                               base
 of Data in                                                                               report
 Obligations
                                                                                                                                          Grantee
  Report                  Unlike NMS, Phoenix cannot generate a                 report reformatted with data on
                           report that summarizes total cumulative              each grant & any amendments
                           obligations, expenditures & unliquidated             under that grant combined and
                            balances under each grant, combining                presented as a single line item
                          data for each grant and any amendments               with all grants sorted by vendor
                                                                                                                                          Financial
                          under that grant together and presenting              & FY and the exclusion of data                          Status Report
                             it as a separate line item; as a result,          relating to all 202(e) accounts &                       (SF 269) [final]
                            DCHA/FFP/POD is forced to manually               those ITSH accounts where a final
                            compute this data, a very tedious task.          SF 269 has not yet been received.


                                                                                                               FFP Budget Specialist
                                                                                                               checks to see whether
                                                      manually computed              Obligations               final SF 269 on-file for
                                                                                                                                              FFP
                                                     subtotals under each                                                                     Files
                                                     grant compared with              Report                    ITSH accounts listed
                                                                                                                 in report (funds may
                            Phoenix                  Phoenix to check for            (final version)
                                                                                                                 be deobligated from
                                                       any math errors
                                                                                                              ITSH account only when
                                                                                                                final 269 is received)
 Preparation &
 Clearance of
 Procurement                                                                         DCHA/FFP
                                            prepares Procurement
 Authorization                                   Authorization
                                                                                     Institutional
Modification (PA                            Modification (PA Mod)                     contractor
  Mod) Form                                   form for each grant                                                                DCHA/FFP
                                             from which funds are
                                                                                          prepares
                                                                                                                                 Contract Officer
                                               being deobligated                                                               (FFP Director or Deputy
                                                                                                                                      Director)

  DCHA/FFP                   sets-up deobligation
                              action within A&A
                                                       DCHA/FFP                                                                               posts
  Contract Officer          (NMS); and attaches         (FFP/POD)                       PA Mod                                signs       deobligation
                                                                                                                             PA Mod        to Phoenix
(FFP Director or Deputy       clearance sheet to      Budget Specialist
       Director)            PA Mod for circulation      "Requester"
      designates
      Negotiator

                                                                                                                                           Phoenix
                                                                reviews                 PA Mod
     PA Mod                           Negotiator                & clears
                                                              deobligation              (cleared)
                                                                                                                            continued
                                                                request
                                                                                                                           on page 35

                                                                                                                                                         34
                                                                                                                                Appendix III


                Deobligation Process: ITSH and Inland & Ocean Freight (continued)

                           continued from
 Copies of                                                         DCHA/FFP                                  DCHA/FFP
                              page 34                                                     forwards
Procurement                                                          (FFP/POD)              copy             Institutional
Authorization                                                      Budget Specialist                          contractor
Modification
 Distributed              DCHA/FFP
                          Contract Officer
                        (FFP Director or Deputy                       PA Mod                                   PA Mod
                               Director)                              (approved)                              (approved)




                              PA Mod
                             (approved)
                                                                         File
                                                                                                             Grantee


Data Checked           DCHA/FFP                      requests printout of
   Against              (FFP/POD)                    Deobligation Report
                      Budget Specialist                                                 Phoenix                    generates
 Deobligation                                                                                                        report
   Report
                                                                        checks amounts authorized for
                                                                     deobligation per the PA Mods against       Deobligation
                                               PA Mods                 amounts listed in the Deobligation         Report
                                                                     Report to verify posted deobligations
                                                                     are reflected and recorded in Phoenix




                                                                    Apportionment and
  Re-Use of               USAID                                      Reapportionment
                                                                    Schedule (SF 132)
                                                                                                                USDA
   Funds                     (M/FM)                                                                              (OBPA)
 Deobligated
During the FY          reports recoveries to                                                                  advises USAID of
                        USDA via Report on                                                                     apportionment
                       Budget Execution and
                       Budgetary Resources
                             (SF 133)
                                                                       OMB
                                                  requests draft
                                                                                                               USAID
  USDA                                            apportionment
                                                                                                             (DCHA/FFP/POD)
  Kansas City               SF 133
                                                                     approves request
 Finance Office                                                       and apportions
    (KCFO)                                                            funds to USDA                             reflects new
                                                                                                                funding level
     records                                                                                                       in OYB
    $ amount
                                                                        SF 132
    recovered
                        USDA                                           (approved)
                      (FSA & OBPA)                                                                                 End

                                                                                                                                         35
                                                                                                  Appendix III


                Deobligation Process: Ocean Freight (Procured by USAID)

                               continued
                             from page 32


Processing of                                                Note: Once M/FM has issued payment to the
Deobligation                 USAID                           carrier, as reflected in Phoenix (see chart on
by M/OP/TC                    (M/OP/TC)                      page 32), M/OP/TC initiates the deobligation
                              Requester                      of any unliquidated balance remaining under
                                                                       the ocean freight contract.
                           sets-up deobligation
                           request within NMS
                              (A&A module)




                             M/OP/TC
                           Contract Officer
                           (Director, M/OP/TC)


                                designates
                                Negotiator




                             M/OP/TC
                               Negotiator


                           reviews & approves
                           deobligation request
                          (verifies final payment
                             has been made
                            under the contract)

                                                           Note: Upon deobligation, funds become
                                                           available for reprogramming. If funds are
                             M/OP/TC                        deobligated in the same fiscal year they
                           Contract Officer                 were obligated, they can be reobligated
                           (Director, M/OP/TC)
                                                           without being reapportioned. If funds are
                                                          deobligated in year after they are obligated,
                           posts deobligation to           funds must be reapportioned (refer to the
                           A&A module in NMS              process described on the bottom of p. 35).



                                                    transfers data
                                                    (via interface)
                            A&A (NMS)                 to Phoenix           Phoenix




                                                                              End

                                                                                                              36
                                                                                                                                    Appendix III


                                   Deobligation Process: 202(e) Grants


                        Start                 Note: The procedures outlined on pages 37-38 are new procedures expected to be performed
                                              by FFP's Institutional Contractor once it resumes its review of the unliquidated balances under
                                              all 202(e) grants after a 3-year hiatus. Reviews were not done due to problems with Phoenix,
                                               difficulty in obtaining final SF 269s from grantees and reviews being assigned a low priority.



Data Query to                                                                                 performs global search
                  DCHA/FFP                  requests printout
   Identify
                  Institutional
                                             of 202(e) grants         USAID                  within Phoenix to identify
                                                                                             all 202(e) grant accounts
Unliquidated                                 awarded over a
                                                                  (DCHA/FFP/POD)            with obligation dates falling         Phoenix
                 Contractor (IC)             specified period
                                                                                            within specified time frame
 Obligations
                                                                                                                           downloads requested data
                                                    Note: In FY '98, FFP discontinued issuing stand alone 202(e)
                                                                                                                           (e.g., unliquidated balance
                                                     grants and began obligating funds for 202(e) grants in the
                                                                                                                             for each grant) onto an
                                                    same TA used to obligate funds for ITSH & commodity costs.
                                                                                                                               Excel spreadsheet



  Review of                                                                                                                    Spreadsheet
202(e) Grants                                                        IC                                                         of 202(e)
     with                                                                                                                        Grants
 Unliquidated
  Balances          a cuff record maintained            (1) identifies all expired 202(e)
                   by IC, providing a list of all      grants listed on spreadsheet; and
                   open 202(e) grants based           (2) posts unliquidated balances for
                     on prior grant awards.             expired grants to Tracking List



                                                                  202(e)                                        submits              SF 269
                                                                                                                 a copy
                        Grantee                                  Tracking                   Grantee            requested               (Final)
                                                                   List                                           by IC
                                             asks grantee to for each expired
                           provides            confirm that   grant, IC checks
                         confirmation          unliquidated      whether...
                                            balance available                                     No
                                             for deobligation



                              IC                         Yes
                                                                     Final
                                                                    SF 269        No
                                                                                                 M/FM
                                                                                               has copy      Yes        USAID
                                                                    on file?                    on file?                    (M/FM)


                       prepares grant
                      modification form

                                                                                                       SF 269
                        Grant                                            IC                            (Final)
                                                                                                                                      USAID
Preparation of        Modification                                                                                                  (DCHA/FFP)
 Modification           Form
of Grant Form
                                                    Note: The Grant Modification Form is prepared only in the case of
                                                    unliquidated balances relating to stand alone 202(e) grants (issued
                                                     prior to FY '98). For 202(e) grant funds obligated in the same TA
                       continued on                  used to obligate funds for ITSH & commodity costs (starting in FY
                         page 38                    '98), a TA Modification is prepared instead of a Grant Modification.


                                                                                                                                                    37
                                                                                                                              Appendix III


                        Deobligation Process: 202(e) Grants [continued]

                                        continued from
                                           page 37
                                                                  Note: The Grant Modification Form is prepared only in the case of
                                                                  unliquidated balances relating to stand alone 202(e) grants (issued
                                                                   prior to FY '98). For 202(e) grant funds obligated in the same TA
                                          Grant                    used to obligate funds for ITSH & commodity costs (starting in FY
                                        Modification              '98), a TA Modification is prepared instead of a Grant Modification.
 Clearance of                                                       If a TA Modification Form is involved, it is received and reviewed
 Modification                             Form                    by the the SO team, not the Grants Manager, which is responsible
                                                                      for setting-up the deobligation action within NMS and Phoenix.
of Grant Form

                                                                                          Grant                       DCHA/FFP
                                        DCHA/FFP             sets-up deobligation
                                                              action within NMS
                                                                                        Modification                  FFP Director or
                                        Grants Manager      & Phoenix; then clears        Form                        Deputy Director
                                                                                                                       (Contract Officer)

                                                                                                                          designates
                                                                                                                          Negotiator


                                                Grant                 reviews &
                                                                                                                         Grant
                                              Modification            negotiates
                                                                                        DCHA/FFP                       Modification
                                                                     deobligation          [FFP/POD]
                                                Form                   request             (Negotiator)
                                                                                                                         Form
Deobligation
 Posted to
 Phoenix           DCHA/FFP                    posts
                   FFP Director or         deobligation
                   Deputy Director          to Phoenix        Phoenix
                   (Contract Officer)

                       approves


                     Grant                                                                    Grant
                   Modification                                                             Modification
                                                             Grantee                                                            M/FM
                     Form                                                                     Form

                                                             countersigns &
                                                            returns 2 copies                  Grant                                FFP
Distribution of                                                                                                                    File
                    DCHA/FFP                                                                Modification
    Grant
                    Institutional                                                             Form
 Modification                                               Grant                                                additional
                     contractor                                                                                    copy
     Form                                                 Modification
                        makes                               Form
                       3 copies
                                                                                                             DCHA/FFP
                                                                                                             Institutional
                                                                                                              contractor
                    Grant
                  Modification                              USAID
                    Form                                    (DCHA/FFP)                                            End

                                                                                                                                            38
                                                                                                                 Appendix III

                    Reporting of Financial Data to Treasury and USDA

        Start

                             creates Bulk
                                                        Phoenix
                             Transfer File
                              in Phoenix
     USAID
 (M/FM/CAR/FCGL)                                         Bulk
                                                     Transfer File

           Data, consisting of the                                                    Treasury processes & edits data using
                                                  transmitted electronically
           summary trial balance                                                       its Federal Agencies Centralized Trial
                                                     on a quarterly basis
            accounts under each                                                         Balance System (FACTS II) software
          appropriation symbol, are                                                   program then generates the Report on
            combined into a Bulk                                                          Budget Execution and Budgetary
          Transfer File in Phoenix.                 Treasury                         Resources (SF 133) on a quarterly basis
                                                                                        and the Year-end Closing Statement
                                                                                     (Form 2108) at the end of the fiscal year.




                                                                                     SF 133
                                                       Treasury
                                                                                                     sends
                                                                                                    quarterly      OMB
                                                       Database


                                                        data down-
                                                       loaded from
                                                        Treasury's                      Using down-loaded data
                                                          server                         USAID prints SF 133
                                                                                       (quarterly) and Form 2108
                                                                                          (fiscal year end only)


                                                      USAID                              certified by M/FM/CAR
                                                   (M/FM/CAR/FCGL)                       and sent to Treasury at
 SF 133             Summary                                                               end of the fiscal year
(Quarterly)        Trial Balance

Form 2108                                     SF 133                 Form 2108
(FY-end only)                                (Quarterly)             (FY-end only)                    Treasury
                                                           sent via fax

              FACTS II
               Binder
                                                       USDA                                        End


                                                                                                                             39
                                                                                                                                    Appendix III


                        Commodity Procurement - Call Forwarding Process (USAID)

                                                                         CS                          Call Forward must be received by
                                      Start                         [Cooperating
                                                                                                      FFP/POD by 4th of the month for
                                                                                                       processed commodities and by
                                                                      Sponsor]                       the 15th for bulk. Upon receipt by
                                                                                                     the overseas mission, the mission
                                                                                                     and Regional FFP office and FFP/
                                                                                                      POD have 15 days to review and
                                                                   Call Forward                        notify CS if the request has not
                                                                     (commodity                         been approved or if there are
                                                                                                      uncorrectable problems involved.
                                                                       request)




                                                                  Concurrence
                  USAID                                              Cable                                       USAID
             (Overseas Mission)                                                                              (DCHA/FFP/POD)


         In reviewing each Call Forward, FFP/POD
        checks the following:
          - correct commodity is being requested;                                            Note: USAID & USDA recently instituted the Food Aid
          - quantity requested is within the tonnage                                         Request Entry System (FARES) which allows users to
             authorized;                                                                   transmit and authorize call forwarding documents as well
          - monetization benchmark price;                         FFP Reviews               as monitor the status of individual call forward requests
          - Bellmon recertification cable has been
             received from overseas mission;
                                                                  Call Forward              electronically, rather than relying on faxed copies. This
                                                                                           new system went on-line in early-2003. During the initial
          - commodity and packaging & marking                                                 months of operation, USAID planned to use parallel
             requirements;                                                                  systems before phasing out the hard copies completely.
          - specifications;                                                                  USAID will continue to review all call forward requests.
          - compliance with USAID policy/legislation
            (e.g., non-fat dry milk monetization policy);
          - approved ports used;
          - shipping schedule requirements; and
          - shipping constraints (e.g., containers)                FFP/POD is able to
                                                                 correct errors/problems
                                                                                                              Call Forward returned
                                                                  after consulting with        No             to CS within 15 days
                                                                 CS, CBO and Regional
       DCHA/FFP                                                       FFP Officer?
       Institutional
        contractor                                                                            If request O.K., cleared by
                                                                         Yes                    CBO, then approved by
  inputs data on Call Forward                                                                FFP/POD Operations Team.
 (after verifying that requested
  commodities are authorized                                       Call Forward
& consistent with approved TA)
                                                                     (approved)

                                                                                                                    copies
                                                                                                                  distributed
                                                                  sends via fax & mail

           FFPIS                                                                                        Distribution to:
                                    Contractor generates the
                                    Commodity Call Forward           USDA                               - CS (e.g., PVO, WFP)
                                                                                                        - Freight Forwarder
                                    Status Report on a daily         (PDD/EOB)                          - OP/TRANS
                                   basis to track the quantity                                          - CBO
     Commodity Call                of commodities requested                                             - FFP/POD
     Forward Status                under each activity per the                                          - FFP Institutional Contractor
         Report                    approved call forward and                                              (see steps outlined to the left)
                                   compare against quantity         continued on
                                    authorized under the TA.          page 41

                                                                                                                                                   40
                                                                                                                            Appendix III

                  Commodity Procurement - Contracting Process (USDA)

                                                                                                                 If problems found, FFP/POD
                           continued from                                Upon receipt, PDD/EOB
                                                                                                                  contacted to resolve issues
                                                                         examines Call Forward,
                              page 40                                     checking for accuracy,
                                                                                                                   over the phone before Call
                                                                                                                     Forward is sent to the
                                                                          completeness and any
                                                                                                                    Kansas City Commodity
                    DCHA/FFP faxes Call Forward to                           inconsistencies
                                                                                                                         Office (KCCO)
                     USDA's Farm Service Agency,
                   Procurement & Donations Division,
                  Export Operations Branch (PDD/EOB)
                                                                         Call Forward
Call Forward                                                                                        PDD/EOB performs an intra-organization
Received and                 USDA                                      sent via fax to KCCO's
                                                                                                     review; then prepares a rack-up sheet
                                                                                                    (summarizing commodities requested in
Reviewed by                  (PDD/EOB)                               Export Operations Division    current batch of Call Forwards, grouped by
                                                                    (KCCO/EOD) in advance of         announcement, commodity, country &
   USDA                                                               the rack-up sheet to give    destination port) and sends to KCCO/EOD.
                                                                    KCCO maximum lead time


                         KCCO/EOD receives rack-up
                                                                                                                           Rack-up
                       sheet and reviews with PDD/EOB
                        for market disruptions; requests                       USDA                                         Sheet
                       substitution of commodities from                   (KCCO/EOD)
                             FFP/POD as required




 Invitation for               Invitations for bids
                                                                    KCCO/EOD's Traffic Mgmt and                           Vendors submit
                                                                    Contract Administration Branch                      Commodity offers
Bids Prepared               prepared and posted to
                                                                     (TMCAB) sends the guideline                      through the Electronic
                               the Farm Service
  and Issued               Agency's (FSA) webpage
                                                                          shipping rates via                             Bid Entry System
                                                                    KC-149 to PDD/EOD for review                              (EBES)




                                                             Commodity                                                  Non-responsiveness
Bids Received                                Yes           offer technically     No
                                                                                            Commodity
                                                                                                                        letters prepared and
                                                                                           offer rejected
     and                                                      compliant?                                                   sent to vendors
  Evaluated


                        Bids evaluated electroncially to                         Award
                       determine lowest landed cost; an
                      award summary & exception list are                        Summary
                                                                                                        sent
                                                                                                       via fax
                                                                                                                          USDA
                        generated from this evaluation.                                                                   (PDD/EOB)



                                                                                                                     Ad-hoc committee (with
                                                                                                                   staff from PDD/EOB, FFP/
                     KCCO/EOD prints               Contract signed (funds                 Awards
                                                                                                                      POD and OP/Trans)
                      Port Allocation              obligated); KCCO/EOD                  approved,
                                                                                                                    receives award summary
                    Report and Notice of           faxes contract wires to              rejected, or
 Awarding of         Export Purchases               all successful bidders                revised
                                                                                                                       & exception list and
                                                                                                                      completes review via
  Contract                                                                                                                conference call

                      PDD/EOD posts                  PDD/EOD sends Notice
                       Port Allocation               of Export Purchases to
                       Report to FSA                   PDD/EOB, booking                              End
                         webpage                      agents and OP/Trans


                                                                                                                                           41
[This page left intentionally blank]




                                       42
                                                                                           Appendix IV



Management
Comments

                                                                                           May 15, 2003
MEMORANDUM

TO:          IG/A/PA, Dianne L. Rawl

FROM:        DCHA/FFP/D, Lauren L. Landis /S/

SUBJECT: Survey of Principal Processes Used to Manage Funds Provided Under the P.L. 480, Title II
         Program (Report No. 9-000-03-00x-S)

This memorandum contains FFP comments in response to the subject report for the survey conducted by
IG/A/PA on the P. L. 480 Title II Program.

FFP thanks you and your staff for this report and the tremendous amount of effort that went into
preparing the document. The flowchart descriptions are an excellent tool for explaining the complex
structure of the Title II program. They identify where processes overlap and/or intersect with other
USAID Bureaus, government agencies or non-governmental organizations, illustrating Food for Peace’s
extensive collaboration and dependency on partners outside of FFP.

The report contains extremely useful analysis and will be used as a living document for many purposes
including NEP and FFP staff training, educating partners both inside and outside of USAID on Title II
processes and in facilitating the progress of our congressionally mandated streamlining effort. Important
areas identified on the flowcharts include budget and financial processes, activity program approval,
commodity and freight procurement processes as well as WFP specific processes. This type of
information will enable FFP personnel to more easily identify their roles and responsibilities within the
larger process.

The report effectively documents the complexity of the processes involved in obtaining and managing
P.L. 480 Title II funding and raises questions about the adequacy of FFP staffing levels in light of the
significant degree of effort needed to responsibly implement this program. This report also pinpoints
the importance of ensuring adequate financial and procurement systems, both in USAID and USDA, for
proper implementation of this program.

This Office recognizes the unique value of this effort and plans to build on the existing documentation
as changes are made to Title II processes and procedures in the future.

Cc: DA/DCHA, Roger Winter
    DAA/DCHA, Garrett Grigsby
    DAA/PPC, Jon Breslar
    DAA/M, Richard Nygard



                                                                                                      43
[This page left intentionally blank]




                                       44
